   MANAGEMENT ADVISORY REPORT ON 

    THE RECORDS MANAGEMENT AND 

DOCUMENTATION PROCESS AT THE DISASTER 

       LOAN SERVICING CENTERS 



               Report Number: 11-10 

             Date Issued: March 29, 2011 





                  Prepared by the 

            Office of Inspector General 

        U.S. Small Business Administration 

                 u.s. Small Business Administration
                 Office Inspector General                       Management Advisory
To:              John A. Miller                                         Date:   March 29,2011
                 Director, Office of Financial Program Operations
                 /s/ Original Signed
From:            Peter L. McClintock
                 Deputy Inspector General

Subject: 	       Management Advisory Report on the Records Management and
                 Documentation Process at the Disaster Loan Servicing Centers

             The purpose of this report is to inform you of issues identified during three recent audits,
             (1) OIG Report 10-01, Monitoring ofInsurance Coverage for Disaster Loan Recipients},
             (2) OIG Report 11-07, Processing ofRecovery Checks at the Disaster Loan Servicing
             Centers 2 , and (3) Release ofCollateral by Loan Servicing Centers 3 conducted at both
             the Birmingham and the EI Paso Disaster Loan Servicing Centers. We noted that the
             servicing centers were not retaining all of the records necessary to ensure adequate and
             proper documentation for a complete audit trail, or providing justification for many
             actions taken. Additionally, the electronic recordkeeping system was missing many
             records associated with active loans and lacked the capability to easily locate and retrieve
             records.

             For this report, we evaluated the issues noted above to determine whether they were
             systemic. Additionally, we interviewed officials from the Denver Finance Center and the
             Disaster Loan Servicing Centers. Because the nature and brevity of this assessment
             precluded the use of our normal audit protocols, this review was not conducted in
             accordance with Generally Accepted Government Auditing Standards. Had we followed
             such standards, other matters might have come to our attention.

             BACKGROUND

             According to 36 CFR, the head of each Federal agency must make and preserve records
             containing adequate and proper documentation. The regulation defines adequate and
             proper documentation as "a record of the conduct of Government business that is
             complete and accurate to the extent required to document the organization, functions,
             policies, decisions, procedures, and essential transactions of the agency and that is
             designed to furnish the information necessary to protect the legal and financial rights of
             the Government and of persons directly affected by the agency's activities.


             1 Final report issued October 20,2009. 

             2 Final report issued February 10, 2011. 

             1 Audit initiated in July 2010 and is ongoing. 

The National Archives and Records Administration (NARA) Management Guide
provides Federal agencies with guidance on the management of records and other types
of documentary materials accumulated by Federal agencies and officials. The guide is
intended to assist in creating and maintaining accurate and complete records of an
agency's functions and activities and in ensuring the authorized, timely, and appropriate
disposition of documentary materials that are no longer needed to conduct business.
Federal agencies are responsible for establishing and maintaining a records management
program that complies with NARA regulations and guidance.

The term "records" has a specific meaning which differentiates official Federal
documents from other types of materials. As defined in 44 U.S.C. 3301, "records" means
documentary materials made or received by a Federal agency in connection with the
transaction of Government business. The NARA guide explains that records should be
maintained by the agency to document the materials that contain information of value to
the agency.

In establishing recordkeeping requirements, according to the NARA guide, Federal
agencies should determine which documentary materials need to be identified as records
and preserved to ensure complete and accurate documentation. Without formal
recordkeeping requirements, records that should be preserved because they contain
evidence of agency activities or information of value to the agency may not be
systematically maintained. The NARA guide also states that the practice of ensuring
"adequate and proper documentation" contributes to efficient and economical agency
operations by guaranteeing that information is documented in official files, including
electronic recordkeeping systems, where it will be accessible to all authorized staff that
may need it.

Also, 36 CFR, Subpart 1220, the NARA Code of Federal Regulations, specifies that
agencies are required to integrate records management and archival requirements into the
design, development, and implementation of electronic information systems. Agencies
must establish records management controls to ensure that Federal records in electronic
information systems can provide adequate and proper documentation of agency business
for as long as the information is needed, according to 36 CFR, Subpart 1236. Some of
the record management controls required include reliability, authenticity, integrity and
usability controls. Reliability controls ensure a full and accurate representation of
transactions and activities. Authenticity controls protect against unauthorized addition,
deletion, alteration, use, and concealment of records. Integrity controls, such as audit
trails, ensure records are complete and unaltered. Usability controls are defined as
mechanisms to ensure records can be located, retrieved, presented, and interpreted.

Standard Operating Procedure (SOP) 00 41, Records Management Program, provides
records retention requirements for the Agency, including disaster loans. The SOP
specifically includes material on 7(b) loan applications received from persons, business



                                             2

firms, and institutions. However, the SOP does not clearly indicate the retention
requirements for material received or created once the loan is in servicing.

RESULTS

Complete Records Needed for Adequate and Proper Documentation of Agency
Actions were not Retained

During three recent audits, we found that the servicing centers were not retaining all
records associated with loan servicing actions. While performing a site visit during the
audit, Monitoring ofInsurance Coverage for Disaster Loan Recipients, we noted that
hundreds of borrower insurance documents received by the servicing center were
scheduled to be destroyed. One particular box contained renewal policies, policy
expiration notices, cancellation notices, amended policy declarations, and miscellaneous
documents. Without these records, servicing center staff were unable to determine
whether borrowers were maintaining flood or hazard insurance in accordance with the
Loan Authorization Agreement, ensuring that the rights of the government were being
protected.

Similarly, during our audit, Processing ofRecovery Checks at the Disaster Loan
Servicing Centers, we noted that the servicing centers did not always retain records
pertaining to the duplication of benefits analysis performed for insurance checks.
Specifically, they did not always retain a copy of the insurance check and the worksheet
used to determine whether duplicate benefits existed. Therefore, the Agency did not
always have adequate and proper documentation supporting its decisions to return
insurance checks to borrowers or apply checks to the outstanding loan balance.

Also, during OIG's audit in progress, Release ofCollateral by Loan Servicing Centers,
the servicing centers were often unable to provide all requested documents, such as
settlement statements for the sale of properties, release of mortgages, release requirement
letters, property valuations, and title reports. This documentation was necessary to
support the validity of the servicing center's decision to release loan collateral and to
demonstrate that the legal and financial rights of the Government or persons directly
affected by the Agency's activities were protected.

Although SOP 00 41 specifies retention requirements for received materials pertaining
to loan applications, it does not provide the servicing centers with specific record
designation or retention requirements for documentation received and created for loans
while in servicing. Therefore, some records that are essential to ensure adequate and
proper documentation were not being retained. To overcome this deficiency, the
servicing centers should develop record designation and retention requirements for all
documents and coordinate with the Office of Management & Administration to
incorporate this guidance into SOP 00 41. The requirements should specify which
documents should be designated as records, and therefore retained, and for how long.




                                             3

Servicing Actions were not Always Supported with Adequate and Proper
Documentation

The servicing centers did not always provide justification to support the decisions made
related to servicing actions. The SBA Form 327, Modification or Administrative Action,
is the only documentation that the servicing centers are required to prepare to indicate the
basis of their decision to return an insurance check to a borrower. According to SOP 50
52, this form should contain all of the information pertinent to the request or problem,
including a summary of the request, evaluation of the supporting documentation, and
recommendation for approval or denial. However, during our audit, Processing of
Recovery Checks at the Disaster Loan Servicing Centers, we found that the SBA
Form 327 actions prepared by the servicing centers did not always provide proper support
for the determination made. Important details such as the insurance check purpose, date
of loss associated with the check, borrower's remaining eligibility, and the total insurance
recoveries were not always recorded.

Additionally, SOP 50 52 does not require an SBA Form 327 to be completed if the
insurance check is being returned to the borrower and is less than $10,000. The majority
of the statistical sample of insurance checks we reviewed during our audit, Processing of
Recovery Checks at the Disaster Loan Servicing Centers, did not exceed $10,000, thus, in
most cases there was no evidence of the justification for returning or retaining insurance
checks.

While performing the audit, Release of Collateral by Loan Servicing Centers, we found
that many justifications for collateral releases were unsubstantiated. In these instances,
the SBA Form 327 indicated that there was sufficient collateral coverage when, in fact,
the servicing centers did not obtain appraisals necessary to make this determination.
The servicing centers indicated that the SOP did not require a current appraisal, however,
without a current appraisal, it is impossible to determine whether there was sufficient
remaining collateral coverage.

When the servicing centers did document their decisions for servicing actions, they
generally did not provide the analysis supporting the decision. In order to ensure
adequate and proper documentation for all servicing actions, the servicing centers should
document their analysis. Designating this analysis as a record and retaining it will
contribute to efficient and economical agency operations by guaranteeing that
information is accessible to all authorized staff that may need it.

The Electronic Recordkeeping System Did Not Capture a Full and Accurate
Representation of All Transactions

The electronic recordkeeping system did not ensure that records would provide adequate
and proper documentation of agency business. The existing electronic recordkeeping
system did not ensure that the record of transactions was reliable and authentic, or ensure
that records were complete as required by 36 CFR, Subpart 1236.



                                             4

During the audit, Release of Collateral by Loan Servicing Centers, we noted some
documents provided by the servicing centers were not copies of the original signed letters
sent to the borrower. Instead, the servicing centers retained an unsigned template and
therefore, could not verify that the documents were actually executed. Additionally,
when the stored documents were retrieved, the dates of the documents were automatically
defaulted to the current date. As a result, borrower requirements letters were not an
accurate representation of the transaction. Records management controls are necessary to
ensure that the Federal records contained in the electronic recordkeeping system provide
adequate and proper documentation of Agency business.

In our audit, Processing ofRecovery Checks at the Disaster Loans Servicing Centers, we
noted that it is not possible to query a loan for all SBA Form 327 actions related to
insurance checks. We also noted that is not possible to query by the document date or by
a specific transaction type. The electronic recordkeeping system is primarily designed to
query by loan number and its capabilities beyond this are limited. We recommend that
that the system be further refined to improve its retrieval capabilities. Ideally, all records
of a specific type, such as insurance checks for example, could be retrieved
simultaneously. This would facilitate the ease of locating and retrieving specific records
for servicing center staff and auditors. Enhanced retrieval capability would result in more
efficient operations.

Summary

The servicing centers lack a clearly defined records management and documentation
process, and therefore, did not consistently make and preserve records containing
adequate and proper documentation as required by 44 U.S.C. 3301. Records that should
have been preserved because they contained evidence of agency activities, or information
of value to the agency, were not systematically maintained. Additionally, the electronic
recordkeeping system did not contain all of the controls specified in 36 CFR Subpart
1236. The deficiencies in the servicing center records management and documentation
process create a risk that the Agency may be unable to furnish information necessary to
protect the legal and financial rights of the Government and of persons directly affected
by the Agency's activities. These deficiencies undermine the Agency's ability to operate
efficiently and economically.

RECOMMENDATIONS

We recommend that the Director, Office of Financial Program Operations, take the
following actions:

    1. 	 Develop record designation and retention requirements for all loan servicing
         documents and incorporate this guidance into SOP 50 52. The requirements
         should specify which documents should be designated as records, and therefore
         retained, and for how long.




                                              5

   2. 	 Revise SOP 50 52 to include a requirement to preserve the analyses performed to
        conduct all servicing actions. A summary of the analysis should be present on the
        Form 327 and the detail of the analysis should accompany the SBA Form 327
        action. The analysis should include sufficient detail to permit an outside party,
        not connected with the transaction, to verify the accuracy of the decision.

   3. 	 Refine the electronic recordkeeping system to facilitate usability so that all
        documents of a specific type and for a specific range of dates can be located and
        retrieved.

   4. 	 Develop written procedures pertaining to the electronic recordkeeping system and
        specify that all documents associated with active loans are to be included in the
        electronic recordkeeping system.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On March 15, 2011, we provided the Office of Financial Program Operations (OFPO)
with the draft report for comment. On March 25,2011, OFPO submitted its formal
response which is contained in Appendix I. Management agreed with our findings and
concurred with three of our four recommendations. Management provided an alternate
resolution for the remaining recommendation. A summary of management's comments
and our response is as follows.

Recommendation 1

Management Comments

OFPO partially concurred with this recommendation. OFPO state it would consider 

appropriate changes to develop guidance to advise on which documents should be 

designated as records and provide guidance on how to retain and for how long. However, 

OFPO proposed this guidance be incorporated into SOP 50 52, instead of SOP 00 41. 

The new draft of SOP 50 52 will be placed into the agency clearance process by August 

31,2011. 


DIG Response

Management's comments are responsive to the recommendation. The proposal to
incorporate the changes into SOP 50 52 instead of SOP 00 41 is acceptable. We changed
the recommendation to reflect SOP 50 52.

Recommendation 2

Management Comments

OFPO concurs with this recommendation. OFPO stated that it had already notified the

                                            6

DLS Center staff that they must retain the supporting transaction justification documents
and work products. SOP 50 52 was currently undergoing revision. OFPO will consider
appropriate changes to include instructions in the revision on retaining documentation
that supports the analysis and final decision in the transaction record.


DIG Response

Management's comments are responsive to the recommendation.

Recommendation 3

Management Comments

OFPO concurred with this recommendation. It stated it would make every effort to
include a robust search function in the recordkeeping system. OFPO will provide a status
update to the OIG no later than September 30, 2011.

DIG Response

Management's comments are responsive to the recommendation.

Recommendation 4

Management Comments

OFPO concurs with this recommendation. It will develop written procedures for the
electronic recordkeeping system and will specify that moving forward, all documents
associated with active loans are to be included. Additionally, OFPO will train personnel
on the system. The written procedures will be developed by August 31, 2011.

DIG Response

Management's comments are responsive to the recommendation.

ACTIONS REQUIRED

Please provide your management decision for each recommendation on the attached SBA
Forms 1824, Recommendation Action Sheet, within 30 days from the date of this report.
Your decision should identify the specific action( s) taken or planned for each
recommendation and the target date(s) for completion.

We appreciate the courtesies and cooperation of the Office of Disaster Assistance during
the audit. If you have any questions regarding this report, please contact me at (202) 205­
6586 or Craig Hickok, Director, Disaster Assistance Group, at (817) 684-5341.



                                             7

APPENDIX I. MANAGEMENT COMMENTS 





                                                U.S.    SMAll. BUSINESS ADMINISTRATION 

                                                          WASH NCr0N . D.C 20416 




                                                                \!E\JORA\DUv!
                                                                  M,lrch !S. :::'011


      To:          P~ter L. \h:Clinlod
                   Dep uty inspt;ctoT (jeJler~1

      hum :        John A \liller      [FOIA ex. 6]
                   Dire;;!lIr. omc~ 1l1'fillJIlCiall'[()),!ram Opc-ratiolls IOFl'O)

      Suhje~t:     Rcspon>;c to dran \--lunagcm~nl Aljyi';()ry 011 the R..:cord" \1unai;..:nWllt Jnti
                   DllcLlmenlatiL)tl at Disaster Loan Servicing Centers. Project 1\0. Il XOI


      Thrtllk you I())' the o;lportllnity to review the dratt \IanagcIll t: tH :\(l\i ';ory. We apprc<.:iall: d'l: fl'li:
      that th.: Ofti(e ()j' 1rl;;pc(.: W[ Gencml (Ol(jj plays in a,~i~tillg ll1:mag~lllcllt in ensuring tb,lt OFP()
      progl'allls arC cffco:.:t ivel; rmll1agcu. The 01Ci'~ main l:llllCernS in thi:; rCyil;\\ rellected th~l1 S I'\..\ ' :;
      disaster loun sen'icing centers in Birmingham. l\lalxlIllU and [1 Paw. 'Ina" (collecti\'cly. [he
      DLS Centers) did not r.:tain records necessary to ensure aJ.cqu'lk anJ prop"r donmH:ntali(l11 cd'
      i,:enain DLS C"'nkr C1cli\'ities.

      The 01(;\ recent audits at the DI.S C<.:Jltcrs haw j()ctls.::d on (I) \'jonitorin!:' ,)1' lilsurunc ('
      COH:r,lge for Disaster Lt'<ln Rccipients. (2) Pro\:es~illg. nj' Re cover:- Checks M tile ])isastn Ll\<Ul
      Scnicing Cellte[·s. anJ (3) Rekasi: oi'Collah.:ral hy Dis(lS1Cf loan Senic-il)g Cemcrs. Of('() and
      the OIG havc hc~n working closdy and commulliC;1tin,t; rrellLLcmly during til<: disJskr loan
      ~Cl'\iLing audit and I\:,ie\\ proccsoes. lhrolLgh this L'i,lSe WllIa(t with Ole a~ I,ell as SilL \isits
      by OFI'O. lVi; beGUIle aware o f records managcl11ent Dlld documentatioll i:;~u\:~ <11 the DJ.s
      Center,. In response. OFPO has instituted signiticilnl irnpfIJ\ cmcnt:<. DLS Center st,II'!' i:i 1\(\\\
      including lrallS<lUlOn jllstilicmion documents and Ilork papcl'~ iUllK t()~11l Ilk WillH>lIl "· .\ ~·';[!Ii,,, ;
      In addition. since DI:C(;mbcr. OI'PO issued all cmai! requiring thaI DLS C~ntcr stal'J'captun:
      duplkatioll 0 Chenelits or colla[~ral release tmnsactions in the l)i"a~tcr Credit 'vlilTlugL:ll1l:nt
      S\'SlCIll "chronlog" to accurately rctll'cllhc current stalUs of the loml. Additionally. DI.S CellI.:'!"
      ,btl now lItili/c-, l'~llcubti0n worksheets 1(1 rc-corJ transaction allalysi:~ in thc loan II Ie. Thc,c
      illlp'l)\el11l:nlS \\ erC rut ll1 plae~ prior to the iSSlI,UlCC of tllC 0)(, \lal1ag~m(:'nl i\dd~OI\ on
      ({eum!:; :V1anagcment [uld DOClIl11Cntmioll and rctl~'ct our seriolls ~ommi tmenl in address thes~
      issues.

      In re~ruar! 2011. OFPO held a process impro\'i.~mcnt workshop Oil DIS in Lll'aso_ lexa,.
      Center slaff I'nml Birming.ham. 1;1 P~~0 <llld Santa An<l. Calit~)1'lli<l gathCITJ lOgc'l hc:r with
      pmtn.:rs frnlll the I'wccs,in~ :1110 Distribution Center' (l'IJCL lhe tnion. arld l-kadljuarlcl':; OFPO
      starr. Tht' I\'orkshn:l i()<':lIscd tln how DI.S Cenkrs i:'u!T,;,'ntly operak and h(m' tll impnlW




                                                        8

APPENDIX I. MANAGEMENT COMMENTS 





       I.:Hicienc y. cHccti\'eness, ,mJ c(lllsiskm:y, As a rc.:sult (lfthis two cia;' workshop , 1~~1l1 S '.\iJl
       evaluate ilnd propose J)LS process improvements, One focus of the teams' ertorts is to jn~prow
       records management ilIld doclllllentarion practices and control:; while laking inlo considcmtit.ll)
       th~ inrorm~lIioll pm\iueu by th~ Ol(i and industry hest prctc(ice~ _



       OFro is pnniding. spt:ciJic r~sp\)nh\!S 10 lht: OIG           r~wlllmenJatiollS       as ioIlD\\:i:

       I.       Dl!vl'lop {/ f('conl desigmltiol1 ami fl'reJ1tioll rl'fJllireflrl!1If'>for 1111 I/Jilil .~I!"'il'i"g
       documents alld co(),,/illate with Ihe Olficl! of.'lftwatJt!nlelll & A dmill iI (m(io" to ill Wrporall.!
       tlti~ guidance int(} SO I' (If) 4 J, 111c req/l ircment.\' should lpecijy IYJu'cli doc// mellls .\110 /ltd he
       desigllared as records, ami tltt'rr!.fon' retainer/, IIfU( for (WlV {0I1f{.

       Ol-PO pUltiall:-' concurs \\"ith tilis recnmmcm.iatiol1 , OF 1'0 wi II c()Il".idt'.-" p):,r,'p.. jl1t~~ ,,' lml\g..:~ \ \1
       develop g\lir.l~11C~ 1<.l 'l(his..;- OJl which documents sbould h~ J\;~ignatcd as rcconb and pro\'idt'
       gLI idcm C(" 011 hOI\ lu retain ,md (Dr ho\v \0 ng:. J J(]WL'YCr. 0 r r'o propos cs th i" g ui dance he
       incIlrpm3tcd illl0 SOP 50 52, instead of the ~fOrel11e111ilJl1ed SOP 00 'II, SOP 5051 is current]:­
       undergoing r~\"i~i()n . OFPO 'l.vill addn:s'i I'CC,1I'd d~SjgJl[\tioIls anJ retention with tne new dr~di of
       SOP 50 5~ , The new dralt II ill h.:: plan~d illl(J Ihe ngetKv ckarance pro\,;\.:~s by August 31. ~Oll.


       2,       Ret'iw SOP SO .121-0 iI/dill/I! II rl'qlliJ'l'ml!1I1 to {Jreserw! tlrl! analyses performed ((J
       cOl/dllct IllI .\'I!J'~'idllf: lfctjOltS. A sumIJu,,'/ offh,-, (1II1l~I'-\iS)'''i)1i1<l be pre,H:ut (lit 'lte Fill-nl]2 7
       will t/J... detail of'lte alJalysis sho/lld ClC(,(IIIl[fCllly tltt: SBA FlJrIll 327 actim" rite llJl(l~rs;S
       ~/1Vj{1rI il/cliule .mfficielll detail ro permif all o//tiirfc P{lf~\', lint CQllllcctetiwifft flit: Irw/J{/clioll,
       to l'erifY Ifle ae ClIme), of tlEe dl'ci.l'itJII,

       OFl'O c(lllCl\r~ with this ],i.'co!llm~n~blion. A~ lwt<;d aboYt.:, OFl'O has alr~aJy notified the iJI,S
       Ccnler slafTthal thc~' must retain the supporting transaclionjuslilicalion documents and . .m rk
       products, The SOP 50 52 is curremly undergoing I'cyision. OFI'O will consider appropriate
       ch,ll1gcs to include inslrlH.:liOlls in the r.:-\'isiclll 011 retaining documentation that ~uprmh 1hl.:
       anal} si ~ an d Ii tlal dcd ~ ic,1l ill Ih ~ trans<lc\i Utl rccol'd,


       J.       Refine tlte f!lecfmllic rl!wnllieepi/lg system 11) filcilitate ItWlhility .so tIm! {III t!OCIII1Iellfs
       of II specific /tum ~J1)1! mrdfor a .'IpeL'ijic Tllnge of dales eml be Joeatell iIIrd relriel-'ctl.

       o FrO OIllCUL'i with this recommendation and wi II mil ke eyery c ffun Itl i nd ude a rohllSl search
       Cllm:liol1 in the rccordkeeping system. OFI'O lIill pnnidc- a ~Lltw; IIpda\i: to lhe OIG 110 lal~I'
      than Septt'lllbL'1' 30. 2011.


      4,      Dr!I'I:lop written pmcedf/re,I' pertaillillg to tlJe electml1ir rl!corllke£'piIlR ~}'!.. ,em IIl1d
      specify llrat all docllmellts aSSOcillfl!tf witll aclive !OIlIJ.\' lire to he hle/ll1ft'il ill the elecfrfJIlh'
      rewrtfft;eepillg sys/(JI1I,




                                                            9

APPENDIX I. MANAGEMENT COMMENTS 





 OFP() Cllnuus with thi ~ n.;cmnIll,;;:ndatioll aml will doevelop \\"l'itt~l1 rroc,:(.'dures r(lr lil(! e lectroni('
 re";{)l"dheping. systel11 ~tnd will spccilY thHlll1o\'ing fomard. all documents u~sociJ.led \\ilh acti\'t~
 Inalls arc \0 be illduded. Addilionally. OFl'(l will Train 11CrS(Jnncl (mlhe system. The wriltcn
 procedures will be dn~Juped by August:; 1.2011.


  ;\:gai!L thank you f()r the appmtuni 1) 10 review the dr<l fc \·bna:;\.'mcli\ i\~vi ~Ol'Y . ()I.'PO
  ~IPPfL'CiatCS tile colltin ucd wllaburation \\i til t h L' 01 (i to add re~s concern s ~ll the J i sas lcr IO:Jn
  scrvidng ccnlcr~ .




                                                             3



                                                            10
